                           UNITED STATES DEPARTMENT OF EDUCATION
                                  OFFICE OF INSPECTOR GENERAL

                                                                                                Audit Services
                                                                              Chicago/Kansas City Audit Region

                                                     August 9, 2007

                                                                                                 Control Number
                                                                                                 ED-OIG/A05G0021

Dr. Joseph B. Morton
State Superintendent of Education
Alabama State Department of Education
50 North Ripley Street
P.O. Box 302101
Montgomery, Alabama 36104

Dear Dr. Morton:

This Final Audit Report presents the results of our audit of the Alabama State
Department of Education’s (ALSDE) and Mobile County Public School System’s
(Mobile) compliance with selected Hurricane Education Recovery Act–Immediate Aid to
Restart School Operations (Restart) program requirements. The objectives of our audit
were to determine if (1) ALSDE established a system of internal control that provided
reasonable assurance that Restart funds were appropriately allocated, and (2) Mobile used
Restart funds only for expenditures that were allowable under the terms of the grant and
applicable laws and regulations. Our audit covered the 2005-2006 school year.



                                                BACKGROUND



In 2005, Hurricanes Katrina and Rita had a devastating and unprecedented impact on
students who attended schools in the declared disaster areas—Louisiana, Mississippi,
Alabama, and Texas. Because of the devastating effects, a significant number of students
enrolled in schools outside the area in which they resided before the hurricanes and
approximately 700 schools were damaged or destroyed. In response to these
extraordinary conditions, Congress created a one-time only emergency grant for the
2005-2006 school year. On December 30, 2005, the President signed into law the
Hurricane Education Recovery Act (HERA).

The legislation authorized three new grant programs to help school districts and schools
to reopen quickly and meet the educational needs of displaced students. The HERA
programs included (1) Emergency Impact Aid for Displaced Students; (2) Assistance for
Homeless Youth; and (3) Restart. The Restart program provided funding to State

 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering
                                       educational excellence and ensuring equal access.
Final Audit Report
ED-OIG/A05G0021                                                                 Page 2 of 5

Educational Agencies (SEAs) in Louisiana, Mississippi, Texas, and Alabama to provide
assistance or services to local educational agencies (LEAs) and non-public schools to
help defray expenses related to the restart of operations in, the reopening of, and the re-
enrollment of students in elementary and secondary schools that serve an area in which a
major disaster had been declared related to Hurricanes Katrina or Rita. Congress
appropriated $750 million for the Restart program, including $3.75 million to Alabama.

SEAs, LEAs, and non-public schools in the declared disaster areas incurred considerable
expenses as they reopened schools and were in urgent need of financial assistance. In
determining the Restart amount to be provided to LEAs for services or assistance, SEAs
considered the (1) number of school aged children served by the LEA or non-public
schools in the 2004-2005 school year, for schools that were closed on September 12,
2005, or October 7, 2005; (2) severity of the impact Hurricane Katrina or Hurricane Rita
had on the LEA or non-public school; and (3) extent of the needs in each LEA or non-
public school in a declared disaster area.

ALSDE identified the eligible LEAs and non-public schools located within each of the
declared eligible counties. ALSDE sent a letter, which included a survey form and
Preliminary Guidelines for Restart funds, to each LEA within the declared eligible
counties to determine how many LEAs needed Restart assistance. ALSDE instructed
each LEA to distribute the survey information to each public school or non-public school
within their attendance zone. ALSDE required the LEAs to complete, sign, and return
the survey forms. Mobile was the only Alabama LEA that submitted a request for Restart
funds.

On January 5, 2006, the U.S. Department of Education (Department) obligated
$3,750,000 in Restart funds for ALSDE. As of January 12, 2007, ALSDE had provided
$1,059,329 to Mobile. ALSDE allocated the Restart funds to Mobile based on reviewing
Mobile’s public and non-public schools’ Restart applications. ALSDE has not drawn
down the remaining $2,690,671 it was awarded.

According to Section 102(e)(1) of the HERA, the authorized uses of Restart funds
include the recovery of student and personnel data and other electronic information,
replacement of school district information systems, financial operations, reasonable
transportation costs, rental of mobile educational units and the lease of neutral sites and
spaces, initial replacement of instructional materials and equipment, redevelopment of
instructional plans, initiation and maintenance of education and support services, and
other activities related to the purpose of the program. According to Section 102(e)(2) of
the HERA, an LEA may use such services or assistance in coordination with other
Federal, State, or local funds available for the activities described above. However,
Restart funds may not be used to supplant any funds the Federal Emergency Management
Agency or State provided.
Final Audit Report
ED-OIG/A05G0021                                                                Page 3 of 5



                                       AUDIT RESULTS



ALSDE established a system of internal control that provided reasonable assurance that
Restart funds were appropriately allocated to LEAs. We interviewed ALSDE and Mobile
LEA officials and reviewed hard copy documents to gain an understanding of ALSDE’s
system of internal control. Then we reviewed ALSDE’s accounting records to compare
the Restart amount the Department awarded to ALSDE and the amount ALSDE provided
to Mobile. The Restart funding ALSDE received from the Department and the amount
($1,059,329) provided to Mobile was equal to and supported by Mobile’s public and non-
public schools’ Restart applications.

In addition, Mobile used Restart funds only for expenditures that were allowable under
the terms of the grant and applicable laws and regulations. Mobile received $1,059,329
in Restart funding. We reviewed Mobile’s Restart policies and procedures and obtained
and reviewed a listing of Mobile’s public schools’ and non-public schools’ Restart
expenditures. As recorded, all the expenditures were within the allowable cost
categories. We also selected a judgmental sample 1 of expenditures totaling $672,236 of
Mobile’s total Restart expenditures of $1,059,329. The judgmentally selected Restart
expenditures all were allowable and adequately supported.



                  OBJECTIVES, SCOPE, AND METHODOLOGY



The objectives of our audit were to determine if (1) ALSDE established a system of
internal control that provided reasonable assurance that Restart funds were appropriately
allocated, and (2) Mobile used Restart funds only for expenditures that were allowable
under the terms of the grant and applicable laws and regulations. Our audit covered the
2005-2006 school year.

To accomplish our objectives, we

1.	 Obtained from the Department the amount of Restart funding awarded to ALSDE;
2.	 Obtained and reviewed ALSDE’s organization chart;
3.	 Obtained and reviewed portions of the HERA, regulations, and guidance relevant to
    the audit objectives;
4.	 Reviewed ALSDE’s and Mobile’s Restart policies and procedures;
5.	 Interviewed various ALSDE and Mobile officials to obtain an understanding of their
    systems of internal control over the Restart program;
6.	 Reviewed ALSDE’s accounting records to compare the Restart amount allocated to
    the amount obligated;

1
    See Objectives, Scope, and Methodology, item number 14.
Final Audit Report
ED-OIG/A05G0021                                                              Page 4 of 5

7.	 Reviewed Mobile’s accounting records to compare the Restart amount received to the
    amount obligated to the public and non-public schools;
8.	 Obtained and reviewed Mobile’s student listing for the 2004-2005 school year to
    determine the reliability of the number of students who were enrolled in Mobile’s
    only elementary and secondary school (Grand Bay Middle School) that was closed on
    September 12, 2005, or on October 7, 2005;
9.	 Obtained and reviewed Mobile’s public and non-public schools’ Restart applications
    to determine the number of public and non-public schools requesting services under
    the Restart program;
10. Obtained Mobile’s additional hurricane relief funding sources;
11. Obtained and reviewed a listing of Mobile’s Restart expenditures to determine
    whether Mobile charged expenditures only to the cost categories allowed by the terms
    of the grant and applicable laws and regulations;
12. Reviewed supporting documentation for a judgmentally selected sample of $325,969
    (of $599,467) of Federal Emergency Management Agency payments to Mobile to
    determine if Mobile received duplicative federal assistance;
13. Reviewed supporting documentation for state insurance and flood insurance
    payments to Mobile to obtain reasonable assurance that Mobile did not receive
    duplicate hurricane assistance to carry out the Restart program; and
14. Reviewed supporting documentation, including timesheets and vendor invoices, for a
    judgmentally selected sample of $672,236 (of $1,059,329) in expenditures incurred
    by Mobile’s Central Office and Grand Bay Middle School, and all three non-public
    schools’ claimed Restart expenditures to determine whether the Restart expenditures
    were allowable per the applicable law and regulations. We selected the Central
    Office and Grand Bay because they were the only two entities receiving a significant
    amount of Restart funds.

We also relied, in part, on data in ALSDE’s Budgetary Expenditure Control System and
Mobile’s McAleer Associates, Inc., Budgetary Accounting System. To assess the
reliability of the data, we compared the amount of Restart funds ALSDE drew down from
the Department and provided to Mobile’s public and non-public schools to the
Department’s Grant Administration and Payment System HERA drawdown activity,
Mobile’s detailed general ledger report, and Mobile’s public and non-public schools’
application totals. We also compared Mobile’s public and non-public schools’ Restart
allocations with their application totals. Based on these comparisons, we concluded the
data were sufficiently reliable for the purposes of our audit.

We conducted our work at ALSDE’s office in Montgomery, Alabama, the Mobile LEA
in Mobile, Alabama, and our office in Chicago, Illinois, from April 2006 through May
2007. We discussed the results of our audit with ALSDE officials on May 4, 2007.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the audit described above.
Final Audit Report
ED-OIG/A05G0021                                                                Page 5 of5



                        ADlVIINISTRA TIVE lVIATTERS


In accordance with the Freedom ofInfonnation Act (5 U.S.C. § 552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent infonnation contained therein is not subject to exemptions in the Act.

We appreciate the cooperation and assistance extended by your staff during the audit.
Because our audit did not disclose any instances of non-compliance with the Restart
program requirements and our report does not contain any recommended corrective
actions, no action on your part is necessary. If you have any questions, please contact
Tom Sample at 715-235-3648 or me at 312-730-1620.

                                             Sincerely,




                                             Gary D. Whitman
                                             Acting Regional Inspector General
                                             for Audit
